           DEPARTMENT OF HEALTH &. HUMAN SERVICES                                             Office of Inspector General


                                                                                              Washington, D.C. 20201




                                                         JUL 1 3 2009

TO:                 Deborah Taylor
                    Acting Director, Office of Financial Management
                    Centers for Medicare & Medicaid Services


                                    /S/
FROM:               Stuart Wright
                    Deputy Inspector General
                      for Evaluation and Inspections


SUBJECT:            Memorandum Report: "Miscoded Claims for Power Wheelchairs in the
                    Medicare Program," OEI-04-07-00403


The Office ofInspector General (ala) is conducting a series of evaluations of Medicare's
payments for power wheelchairs supplied to beneficiaries in the first half of 2007. This report
provides information on the extent to which Medicare suppliers used correct procedure codes to
bill for standard and complex rehabilitation power wheelchairs during the first half of 2007. This
information should be viewed in the context of our other recent reports on power wheelchairs
and may also be included as part of an aggregate error rate in an OIG report on the medical
necessity of power wheelchairs. To ensure that we provide timely information, we are providing
this report on coding errors at this time. l

We discovered the coding errors identified in this report while reviewing power wheelchair
model information on manufacturer invoices, as part of a separate evaluation, to determine
suppliers' costs to purchase these chairs. Because power wheelchairs are assigned to procedure
codes based on the manufacturers' model information, we defined miscoded claims as those for
which the suppliers billed Medicare using procedure codes that did not match the model
information on the invoices of power wheelchairs supplied to beneficiaries.

We found that suppliers miscoded 8 percent of standard and complex rehabilitation power
wheelchair claims from the first half of 2007. Three percent of standard and complex
rehabilitation power wheelchair claims were upcoded, resulting in the Centers for Medicare &
Medicaid Services (CMS) overpayments to the suppliers, and 4 percent were downcoded,
resulting in underpayments to the suppliers. One percent of claims were miscoded, but the
manufacturers' invoices had insufficient model information to categorize the claims as either
upcoded or downcoded. Complex rehabilitation power wheelchair claims were miscoded more
often than standard power wheelchair claims (23 percent and 7 percent, respectively). Complex


I   The medical necessity reviews will be completed in 2010.

OEI-04-07-00403                               Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 2 – Deborah Taylor


rehabilitation power wheelchair claims were also upcoded more often than standard power
wheelchair claims (12 percent and 3 percent, respectively). In the first half of 2007, suppliers
submitted over 13 times more standard than complex rehabilitation power wheelchair claims.
Therefore, the greater number of standard power wheelchair claims strongly influenced the
combined error rates.

BACKGROUND

Medicare beneficiaries are eligible to receive power wheelchairs under Medicare Part B coverage
of durable medical equipment (DME). In 2007, approximately 173,300 Medicare beneficiaries
received power wheelchairs at a total cost to Medicare and its beneficiaries of $686 million. 2

Power wheelchairs are medically necessary for beneficiaries who cannot effectively perform
mobility-related activities of daily living using other mobility-assistive equipment, such as a cane,
manual wheelchair, or power-operated scooter. 3 4 Most beneficiaries who require power
wheelchairs are unable to walk and have severe upper body weakness because of a neurologic or
muscular condition. 5

Beneficiaries receive power wheelchairs from DME suppliers, which bill the Medicare program for
reimbursement. The prescribing physician provides the supplier with documentation from the
beneficiary’s medical record to support the medical necessity of the power wheelchair, along with
the power wheelchair prescription. 6 Based on the prescription, the supplier recommends a specific
power wheelchair for the beneficiary. The physician must then review and approve the supplier’s
recommendation.

Medicare beneficiaries may choose to rent or purchase their power wheelchairs, although most
choose to purchase them. 7 In the first half of 2007, new power wheelchair purchases accounted for

2
  OIG analysis of 2007 CMS claims data, July 2008.
3
  CMS, “Medicare National Coverage Determinations Manual,” Pub. No. 100-03, ch.1, § 280.3. Last modified in
August 2005. Available online at http://www.cms.hhs.gov/manuals/downloads/ncd103c1_Part4.pdf. Accessed on
March 17, 2009.
4
  Based on Medicare’s National Coverage Determination for Power Mobility Devices, mobility-related activities of
daily living include toileting, feeding, dressing, grooming, and bathing in customary locations within the home.
5
  CMS’s Medicare Learning Network, “Medicare Coverage of Power Mobility Devices: Power Wheelchairs and
Power Operated Vehicles,” April 2006.
6
  Local coverage determinations issued by Medicare contractors require a physician or other treating practitioner to
conduct a beneficiary examination to assess the beneficiary’s need for a power wheelchair before prescribing it. The
supplier must also conduct an assessment of the beneficiary’s home to determine whether it is conducive to power
wheelchair usage. A beneficiary who receives a complex rehabilitation power wheelchair must have an additional
specialty evaluation.
7
  Medicare covers power wheelchairs under a capped rental arrangement. Suppliers must give beneficiaries the
option of purchasing the power wheelchairs when they first provide them. If the beneficiary declines to purchase in
the first month, Medicare will pay for the power wheelchair on a rental basis through the 13th month. The supplier
must transfer ownership to the beneficiary after the 13th month.


OEI-04-07-00403                              Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 3 – Deborah Taylor


95 percent of all Medicare power wheelchair expenditures. 8 Medicare pays 80 percent of the
supplier’s reimbursement and the beneficiary is responsible for the remaining 20 percent.

Medicare Procedure Codes and Program Requirements
Suppliers submit Medicare claims for power wheelchairs using Healthcare Common Procedure
Coding System codes (“procedure codes”). Medicare determines the highest dollar amount that
suppliers may be reimbursed for each procedure code (“fee schedule amount”).

Accurate coding is critical to ensuring that Medicare makes proper payments. CMS’s “National
Correct Coding Policy Manual for Part B Medicare Carriers” (the Coding Manual) provides
guidance for the use of procedure codes. The Coding Manual requires that when submitting
claims, suppliers should “report the [procedure] code that describes the procedure performed to the
greatest specificity possible.” 9

Power Wheelchair Procedure Code Assignment
As of January 2007, Medicare covered more than 500 different power wheelchair models under
42 procedure codes on its power wheelchair fee schedule.10 11 Medicare’s Pricing, Data Analysis,
and Coding (PDAC) contractor conducts coding reviews of each power wheelchair model
submitted by manufacturers to assign the model to a specific procedure code. 12 Each model is
assigned a procedure code based on the power wheelchair’s performance, patient weight capacity,
seat type, portability, and power seating system capability. 13 As of January 2007, a minimum of
2 and a maximum of 75 models were reimbursable under individual power wheelchair procedure
codes. 14

Each power wheelchair’s model information includes a product name assigned by the
manufacturer. Power wheelchairs may be further differentiated by a model number. When
multiple model numbers are associated with one product name, Medicare assigns each model
number to a procedure code, although the same product name may appear under multiple
procedure codes.



8
  OIG analysis of 2007 CMS claims data, January 2009.
9
  CMS, “National Correct Coding Policy Manual for Part B Medicare Carriers,” Version 14.3,
p. XII-1, 2007. Available online at http://www.cms.hhs.gov/NationalCorrectCodInitEd/. Accessed on March 20,
2009.
10
   Power wheelchair procedure codes are K0813–K0816, K0820–K0831, K0835–K0843, and K0848–K0864.
11
   Since January 2007, additional models have been assigned to power wheelchair procedure codes. As of April
2008, Medicare covered 685 power wheelchair models.
12
   Until August 2008, the Statistical Analysis DME Regional Carrier contractor performed the activities that PDAC
now performs.
13
   “Power Mobility Device Coding Guidelines,” Statistical Analysis DME Regional Carrier, August 3, 2006.
Available online at https://www.dmepdac.com/resources/articles/2006/08_14_06.pdf. Accessed on April 1, 2009.
14
   Two power wheelchair models were reimbursable under procedure code K0863 and 75 models were reimbursable
under procedure code K0823 as of January 2007.


OEI-04-07-00403                             Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 4 – Deborah Taylor


When submitting a power wheelchair claim, a supplier can use the manufacturer’s model
information to identify the correct procedure code to bill Medicare. The PDAC provides resources
to assist manufacturers, distributors, and suppliers with DME product coding questions. In
addition to publishing educational articles and maintaining a call center, the PDAC posts results of
coding decisions for power wheelchairs and other DME on the Internet through its DME Coding
System (DMECS). 15 16 Using the DMECS, suppliers can search the power wheelchair Product
Classification List by manufacturer, product name, or model number to identify the correct
procedure code to bill Medicare.

Power Wheelchair Groups
Power wheelchairs are divided into three groups based on their reported testing performance in
categories such as speed, range, and height of vertical obstructions they can climb. Group 3 power
wheelchairs must meet the highest performance requirements, while Group 2 chairs and Group 1
chairs must meet intermediate and the lowest performance requirements, respectively. For
example, Group 3 power wheelchairs must be able to travel at least 12 miles on a single charge of
batteries, while the minimum distances for power wheelchairs in Groups 2 and 1 are 7 and 5 miles,
respectively. Appendix A compares the performance requirements of the three groups.

Power Wheelchair Types
Standard power wheelchairs: Group 2 includes the most frequently reimbursed procedure code
(K0823). In this report, we refer to K0823 power wheelchairs as “standard power wheelchairs.”
Standard power wheelchairs feature an automotive-style seat and are designed to provide basic,
daily mobility for persons weighing less than 300 pounds. These power wheelchairs cannot be
upgraded with power options (e.g., a powered seating system) or other electronic features (e.g., a
device to enable the user to control the chair by sipping and puffing through a straw).

Medicare’s 2007 fee schedule amount for standard power wheelchairs was $4,024. Standard power
wheelchairs accounted for nearly three-quarters of Medicare’s power wheelchair claims and
expenditures in the first half of 2007. 17 Seventy-five power wheelchair models were reimbursable
under the standard power wheelchair procedure code as of January 2007. 18

Complex rehabilitation power wheelchairs: Complex rehabilitation procedure codes include all
Group 3 power wheelchairs and Group 2 power wheelchairs that can be upgraded with power
options. To receive a complex rehabilitation power wheelchair, a beneficiary must meet criteria
beyond those required to receive a standard power wheelchair. For example, the beneficiary’s
mobility limitation must be because of a neurological condition, muscle disease, or skeletal

15
   Available online at https://www.dmepdac.com/dmecs/index.html. Accessed on March 27, 2009.
16
   “DMECS Guide.” Available online at https://www.dmepdac.com/docs/search/2-DMECS%20Guide.pdf.
Accessed on March 5, 2009.
17
   OIG analysis of claims from the National Claims History File with dates of service from January 1 to June 30,
2007, processed as of June 30, 2007.
18
   Motorized Wheelchair Product Classification List, as published by the Statistical Analysis DME Regional Carrier,
January 2, 2007.


OEI-04-07-00403                             Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 5 – Deborah Taylor


deformity. Complex rehabilitation power wheelchairs can be upgraded with power options and
other electronic features to accommodate beneficiaries’ specific mobility needs.

The 2007 fee schedule amounts for complex rehabilitation power wheelchair procedure codes
ranged from $4,132 to $11,965. Medicare payments for complex rehabilitation power wheelchairs
accounted for less than 7 percent of power wheelchair claims and expenditures in the first half of
2007. 19 Medicare covered 276 complex rehabilitation power wheelchair models under
26 procedure codes as of January 2007. 20 21

Measures Employed To Prevent Improper Payments
Medicare utilizes contractors to ensure that claims meet requirements and to prevent fraud,
waste, and abuse. To identify potential coverage and coding errors, contractors use automated
computer edits at the time a claim is submitted, as well as targeted prepayment and postpayment
claims reviews.

The DME Medicare Administrative Contractors (MAC) use automatic computer edits to ensure
that claims that suppliers submit include all required information. The edits may deny an
erroneous claim or suspend it for futher review. 22 When submitting a claim, a supplier must
provide information pertaining to the beneficiary, the prescribing physician, place of service, and
type of service, among other information. However, suppliers are not required to provide the
equipment’s model information.

Both DME MACs and Zone Protection Integrity Contractors (ZPIC) conduct targeted claims
reviews. 23 Medicare’s “Program Integrity Manual” directs contractors to “request appropriate
medical documentation and review cases for coverage and correct coding.” 24 Medical reviews by
DME MACs focus on compliance with coverage criteria through provider feedback. Notification
and medical reviews by ZPICs focus on identifying potential fraud, waste, and abuse. Beneficiary
medical records do not include information about the power wheelchair models that beneficiaries
receive. Because power wheelchairs are assigned to procedure codes based on model information,
Medicare contractors’ reviews of medical records will not identify power wheelchairs billed with
incorrect procedure codes.

19
   OIG analysis of claims from the National Claims History File submitted under procedure codes
K0835–K0864 with dates of service from January 1 to June 30, 2007, processed as of June 30, 2007.
20
   Complex rehabilitation procedure codes are K0835–K0864.
21
   Motorized Wheelchair Product Classification List, as published by the Statistical Analysis DME Regional Carrier,
January 2, 2007.
22
   CMS, “Medicare Program Integrity Manual,” Pub. No. 100-08, ch. 3.4. Available online at
http://www.cms.hhs.gov/manuals/downloads/pim83c03.pdf. Accessed on March 20, 2009.
23
   In 2008, CMS began to replace program safeguard contractors with ZPICs, which will operate in seven zones.
Program safeguard contractors were charged with benefit integrity functions for Medicare Parts A and B. ZPICs’
scope of work includes Medicare Parts A, B, C, and D, including DME, home health, hospice, and dually eligible
beneficiaries.
24
   CMS, “Medicare Program Integrity Manual,” Pub. No. 100-08, ch. 3.2. Available online at
http://www.cms.hhs.gov/manuals/downloads/pim83c10.pdf. Accessed on April 1, 2009.


OEI-04-07-00403                             Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 6 – Deborah Taylor


OIG Power Wheelchair Evaluation Series
OIG is conducting a series of evaluations of Medicare’s payments for power wheelchairs supplied
to beneficiaries in the first half of 2007. In addition to issuing this report, OIG plans to issue
separate reports on (1) suppliers’ costs to purchase power wheelchairs and the services that
suppliers performed in conjunction with providing the chairs; (2) suppliers’ costs to purchase
power wheelchair batteries; (3) compliance with documentation requirements; and (4) the
appropriateness (e.g., the medical necessity) of power wheelchair claims. We discovered the
coding errors identified in this report while reviewing power wheelchair model information on
manufacturer invoices, as part of a separate evalulation, to determine suppliers’ costs to
purchase these chairs.

METHODOLOGY

Scope
We reviewed the model information on manufacturer invoices for a random sample of power
wheelchair claims that we selected to conduct the series of power wheelchair evaluations. We
determined whether suppliers billed Medicare using correct procedure codes based on the model
information on the invoices. 25 This evaluation focuses on standard and complex rehabilitation
power wheelchairs supplied to Medicare beneficiaries in the first half of 2007.

Sample Selection
Our population consisted of new, nonrental power wheelchair claims from CMS’s National Claims
History DME Standard Analytical File with dates of service during the first half of 2007. 26 Before
selecting our sample, we removed claims associated with suppliers that were not actively enrolled
in Medicare and claims associated with suppliers or prescribing physicians that were under OIG
investigation. 27 28 After removing these claims, the population from which we sampled included
93 percent of standard and 91 percent of complex rehabilitation power wheelchair claims.




25
   The invoice is the itemized bill from the manufacturer or distributor, containing individual prices, the total charge,
and sales terms.
26
   The final date to submit claims with dates of service during the first half of 2007 was December 31, 2008. We
analyzed claims CMS processed, as of June 30, 2007. Suppliers had submitted 79 percent of claims with dates of
service during the first half of 2007 at the time we selected our sample.
27
   Pursuant to 42 CFR § 424.520(a), to maintain Medicare billing privileges after initial enrollment, suppliers must
comply with Medicare regulations and relevant Federal and State requirements. Pursuant to 42 CFR § 424.535,
Medicare may revoke a supplier’s billing privileges because of a felony, noncompliance with enrollment
requirements, etc. Pursuant to 42 CFR § 424.540, Medicare also may deactivate a supplier’s billing privileges when
the supplier does not submit a claim for a full year or when the supplier fails to report a change to the information
provided on the enrollment application.
28
   We removed 3,430 standard and 301 complex rehabilitation power wheelchair claims because of suppliers’
Medicare enrollment status or an ongoing investigation. After removing these, our population consisted of
43,133 standard and 3,001 complex rehabilitation power wheelchair claims.


OEI-04-07-00403                                Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 7 – Deborah Taylor


We grouped the resulting population into three strata:

     1. standard power wheelchair claims submitted by low-volume suppliers (those that submitted
        fewer than 10 standard power wheelchair claims in the first half of 2007),
     2. standard power wheelchair claims submitted by high-volume suppliers (those that
        submitted 10 or more standard power wheelchair claims in the first half of 2007), and
     3. complex rehabilitation power wheelchair claims. 29

We selected 375 total claims by selecting simple random samples of 125 claims from each stratum.
Appendix B provides the number of claims, Medicare expenditures, and number of suppliers for
the population and sample, by stratum.
Data Collection and Analysis
We obtained suppliers’ addresses from the National Supplier Clearinghouse and, for each claim,
requested the manufacturer’s invoice for the supplier’s purchase of the power wheelchair. 30 We
mailed up to three requests and telephoned nonresponding suppliers to ensure that they received the
requests.

We removed 17 claims for which the suppliers did not submit invoices. 31 We also removed five
claims because the invoices suppliers submitted had insufficient information about the model to
determine whether the claims were miscoded. Finally, we removed 14 claims for power
wheelchairs that the manufacturer supplied directly to the beneficiaries because no manufacturer
invoices existed for our review. After removing these claims, our sample consisted of 339 claims, a
response rate of 90 percent.

We determined whether power wheelchairs were miscoded using the manufacturers’ model
information (i.e., product name and model number) on the invoices.32 We defined miscoded claims
as those for which the supplier billed Medicare using a procedure code that did not match the
model information listed on the manufacturer’s invoice (i.e., the correct procedure code). In
addition, we ensured that the power wheelchair serial numbers for miscoded claims matched the
serial numbers on the power wheelchair delivery records, when this information was available. 33



29
   We chose to divide the standard power wheelchair population at a supplier volume of 10 claims based on the
distribution of suppliers and claims. Only 25 percent of suppliers had 10 or more claims, and these accounted for
83 percent of all standard power wheelchair claims.
30
   We also requested supplier documentation related to other evaluations in our series of power wheelchair
evaluations.
31
   We will forward a list of nonresponding suppliers to CMS.
32
   We used Medicare’s Motorized Wheelchair Product Classification List from January 2007. We also confirmed
that the sample claims’ models were not reassigned to different procedure codes during the first half of 2007, using
the “effective date” field on a 2008 Product Classification List.
33 We had serial numbers, which are unique to individual power wheelchairs, from both the invoice and the delivery
record for 29 out of 45 miscoded claims identified.


OEI-04-07-00403                              Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 8 – Deborah Taylor


We categorized miscoded claims as either upcoded or downcoded. Upcoded claims were those for
which Medicare allowed more than the fee schedule amount for the correct procedure code.
Upcoded claims resulted in CMS overpayments to the suppliers. Downcoded claims were those
for which Medicare allowed less than the fee schedule amount for the correct procedure code.
Downcoded claims resulted in CMS underpayments to the suppliers.

We were unable to categorize miscoded claims that had insufficient documentation. For these
claims, the models’ product names, but not the specific model numbers, were listed on the
invoices. The claims were miscoded because the product names were not reimbursable under the
procedure codes the suppliers used to bill Medicare. However, we could not determine whether
they were upcoded or downcoded because the product names were reimbursable under multiple
procedure codes, with fee schedule amounts that were both higher and lower than the billed
procedure codes.

We calculated error rates by power wheelchair type and, for standard power wheelchair claims, by
supplier volume and projected the results. 34 See Appendix C for the confidence intervals for these
estimates.

We calculated Medicare’s average and maximum overpayments and underpayments (“improper
payments”) for upcoded and downcoded sample claims. We calculated overpayments and
underpayments based on the difference between the amounts Medicare allowed and the fee
schedule amounts for the correct procedure codes. We used the highest fee schedule amount to
calculate improper payments for upcoded and downcoded sample claims with multiple potentially
correct procedure codes. This approach was conservative because it resulted in the lowest
overpayment for upcoded claims and the highest underpayment for downcoded claims. We did not
calculate improper payments associated with miscoded claims that had insufficient documentation
to categorize as upcoded or downcoded.

Limitations
We did not contact the beneficiaries associated with miscoded claims to verify that the power
wheelchairs they received matched the model information from the manufacturer invoices that
suppliers submitted. However, we ensured that the power wheelchair serial numbers for miscoded
claims matched the serial numbers on the power wheelchair delivery records, when this
information was available.

We do not know why suppliers submitted miscoded claims. For all miscoded claims, we do not
know whether the power wheelchairs that suppliers provided were medically necessary.

We did not project improper payment estimates because the sample sizes associated with miscoded
claims were not large enough to produce these estimates reliably. Therefore, this report does not
address the impact of miscoded power wheelchair claims on Medicare and beneficiary payments.

34
     We used SAS and Survey Data Analysis software to project our sample results to the population.


OEI-04-07-00403                               Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 9 – Deborah Taylor


Standards
This study was conducted in accordance with the “Quality Standards for Inspections” issued by
the President’s Council on Integrity and Efficiency and Executive Council on Integrity and
Efficiency (now Council of the Inspectors General on Integrity and Efficiency).

RESULTS

Eight Percent of Standard and Complex Rehabilitation Power Wheelchairs Were Miscoded
in the First Half of 2007
Medicare reimbursed suppliers for 46,134 new, nonrental standard and complex rehabilitation
power wheelchair claims in the first half of 2007. 35 36 Based on the power wheelchair model
information on the manufacturer invoices that suppliers submitted, 8 percent of these claims were
miscoded. Suppliers billed Medicare for these claims using procedure codes that did not match the
power wheelchairs they provided to beneficiaries.

Table 1 compares the miscoded error rates for two power wheelchair types, standard and
complex rehabilitation, and presents the combined error rates. In the first half of 2007, suppliers
submitted over 13 times more standard than complex rehabilitation power wheelchair claims.
Therefore, the greater number of standard power wheelchair claims strongly influenced the
combined error rates. Appendix C provides the confidence intervals for all estimates.

     Table 1: Error Rates for Miscoded Standard and Complex Rehabilitation Power Wheelchair
     Claims, First Half of 2007
                                                                             Miscoded Error Rate (Percentage)
                                                                                             Complex     Standard and Complex
                                                    Standard Power              Rehabilitation Power       Rehabilitation Power
  Miscoded Error Type                                  Wheelchairs                      Wheelchairs                Wheelchairs
  Upcoded                                                               3%                     12%                          3%
  Downcoded                                                             4%                       4%                        4%
  Insufficient documentation to
  categorize                                                            0%                       7%                        1%
                Total                                                   7%                     23%                          8%
Source: OIG analysis of power wheelchair manufacturer invoices, 2009.




35
   This figure excludes claims we removed from the population because the suppliers did not have active Medicare
enrollment status or were under OIG investigation.
36
   We analyzed claims CMS processed as of June 30, 2007. Suppliers had submitted 79 percent of claims with dates
of service during the first half of 2007 at the time we selected our sample.


OEI-04-07-00403                                         Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 10 – Deborah Taylor


Three percent of standard and complex rehabilitation power wheelchair claims were upcoded and
4 percent were downcoded. Complex rehabilitation power wheelchair claims were miscoded and
upcoded more often than standard power wheelchair claims in the first half of 2007. 37

Seven percent of standard power wheelchair claims were miscoded in the first half of 2007.
Medicare reimbursed suppliers for 43,133 new, nonrental standard power wheelchair claims in the
first half of 2007. 38 39 Based on manufacturers’ invoices, 7 percent of these claims were miscoded.
Eleven percent of standard power wheelchair claims submitted by low-volume suppliers and
6 percent of those submitted by high-volume suppliers were miscoded. Suppliers that submitted
these miscoded claims provided Medicare beneficiaries with power wheelchairs other than a
standard power wheelchair.

Table 2 compares the miscoding error rates for standard power wheelchair claims by supplier
volume.

     Table 2: Error Rates for Miscoded Standard Power Wheelchair Claims, by Supplier
     Volume, First Half of 2007
                                                                             Miscoded Error Rate (Percentage)
                                                             High-Volume                   Low-Volume      All Standard Power
     Miscoded Error Type                                        Suppliers                    Suppliers     Wheelchair Claims

     Upcoded                                                             2%                         5%                   3%
     Downcoded                                                           4%                         4%                   4%
     Insufficient documentation to
     categorize                                                          0%                         1%                   0%
                  Total                                                  6%                       11%*                   7%
     * Column does not add to total because of rounding.
     Source: OIG analysis of power wheelchair manufacturer invoices, 2009.



Three percent of all standard power wheelchair claims were upcoded. Five percent of standard
power wheelchair claims submitted by low-volume suppliers and 2 percent of those submitted by
high-volume suppliers were upcoded.

In the first half of 2007, Medicare allowed up to $4,024 for standard power wheelchairs. 40 Based
on the sample, suppliers that submitted upcoded standard power wheelchair claims received an
average of $437 more than the fee schedule amount to which they were entitled. Medicare’s

37
   The miscoded and upcoded error rates for standard and complex rehabilitation power wheelchair claims are
statistically different at a 95-percent confidence level, based on a chi-square test.
38
   This figure excludes claims we removed from the population because the suppliers did not have active Medicare
enrollment status or were under OIG investigation.
39
   We analyzed claims CMS processed as of June 30, 2007. Suppliers had submitted 79 percent of claims with dates
of service during the first half of 2007 at the time we selected our sample.
40
   In January 2009, the fee schedule amount was reduced to $3,641.


OEI-04-07-00403                                           Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 11 – Deborah Taylor


maximum overpayment for a single claim was $936. Many beneficiaries associated with upcoded
standard power wheelchair claims received less expensive Group 1 power wheelchairs.

Four percent of all standard power wheelchair claims were downcoded. Standard power
wheelchair claims submitted by low- and high-volume suppliers were downcoded at approximately
the same rate (4 percent).

Based on the sample, suppliers that submitted downcoded standard power wheelchair claims
received an average of $977 less than the fee schedule amount to which they were entitled.
Medicare’s maximum underpayment for a single claim was $3,252. Most beneficiaries associated
with downcoded sample claims received more expensive power wheelchairs in the same group as
standard power wheelchairs (Group 2). However, two beneficiaries received Group 3 complex
rehabilitation power wheelchairs instead of standard power wheelchairs.

In addition, less than 1 percent of standard power wheelchair claims were miscoded, but the
manufacturers’ invoices had insufficient model information to categorize the claims as either
upcoded or downcoded. For each of these claims, the chair’s product name was not reimbursable
under the procedure code the supplier used to bill Medicare. However, because the invoices did
not include the model numbers for each of these claims, we could not determine which of several
possible procedure codes was correct.

Twenty-three percent of complex rehabilitation power wheelchair claims were miscoded in the first
half of 2007. Medicare reimbursed suppliers for 3,001 new, nonrental complex rehabilitation
power wheelchair claims in the first half of 2007. 41 42 Based on the manufacturers’ invoices,
23 percent of these claims were miscoded. Twelve percent of complex rehabilitation power
wheelchair claims were upcoded and 4 percent were downcoded. Suppliers that submitted these
claims billed Medicare using complex rehabilitation procedure codes that did not match the model
information on the invoices for power wheelchairs they provided to Medicare beneficiaries.

In the first half of 2007, Medicare fee schedule amounts for complex rehabilitation power
wheelchairs ranged from $4,132 to $11,965. 43 Based on the sample, suppliers that submitted
upcoded complex rehabilitation power wheelchair claims received an average of $1,081 more than
the fee schedule amount to which they were entitled. Medicare’s maximum overpayment for a
single claim was $2,087. Beneficiaries associated with upcoded complex rehabilitation power
wheelchair claims from the sample received less expensive power wheelchairs, including Group 1
power wheelchairs, standard power wheelchairs, and less expensive complex rehabilitation power
wheelchairs.

41
   This figure excludes claims we removed from the population because the suppliers did not have active Medicare
enrollment status or were under OIG investigation.
42
   We analyzed claims CMS processed as of June 30, 2007. Suppliers had submitted 79 percent of claims with dates
of service during the first half of 2007 at the time we selected our sample.
43
   In January 2009, fee schedule amounts for complex rehabilitation power wheelchairs were reduced by
9.5 percent, to between $3,739 and $10,828.


OEI-04-07-00403                            Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 12 – Deborah Taylor


Based on the sample, suppliers that submitted downcoded complex rehabilitation power wheelchair
claims received an average of $881 less than the fee schedule amount to which they were entitled.
Medicare’s maximum underpayment for a single claim was $1,363.

In addition, 7 percent of complex rehabilitation power wheelchair claims were miscoded, but the
manufacturers’ invoices had insufficient model information to categorize the claims as either
upcoded or downcoded. For each of these claims, the chair’s product name was not reimbursable
under the procedure code the supplier used to bill Medicare. However, because the invoices did
not include the model numbers for each of these claims, we could not determine which of several
possible procedure codes was correct.

CONCLUSION

Medicare reimbursed suppliers for 46,134 new, nonrental standard and complex rehabilitation
power wheelchair claims in the first half of 2007. 44 Suppliers billed Medicare for 8 percent of
these claims using procedure codes that did not match the model information on the invoices for
the power wheelchairs provided to beneficiaries. Three percent of standard and complex
rehabilitation power wheelchair claims were upcoded and 4 percent were downcoded. One
percent of claims were miscoded, but the invoices had insufficient model information to
categorize the claims as either upcoded or downcoded. Complex rehabilitation power
wheelchair claims were miscoded more often than standard power wheelchair claims (23 percent
and 7 percent, respectively). Complex rehabilitation power wheelchair claims were also upcoded
more often than standard power wheelchair claims (12 percent and 3 percent, respectively).

We will forward information on the miscoded claims identified in our sample to CMS for
appropriate action. In addition, our analysis indicates that suppliers may need further education to
determine the correct power wheelchair procedure codes to bill Medicare. Our analysis also
demonstrates that opportunities exist to improve CMS’s review of power wheelchair claims. If
suppliers provided model information when submitting claims, CMS contractors could use this
information to automatically determine whether the models are reimbursable under the billed
procedure codes. In addition, if contractors included manufacturers’ invoices in their targeted
reviews, they could determine whether billed procedure codes match the model information on the
invoices.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-04-07-00403 in all correspondence.




44
  This figure excludes claims we removed from the population because the suppliers did not have active Medicare
enrollment status or were under OIG investigation.


OEI-04-07-00403                            Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 13 – Deborah Taylor


APPENDIX A



 Power Wheelchair Performance Requirements, by Group

 Performance                    Description of                                    Group 1                 Group 2                   Group 3
 Category                       Performance Category                          Requirement             Requirement               Requirement

 Length
                                                                                   40 inches               48 inches                  48 inches

 Width
                                                                                   24 inches               34 inches                  34 inches
                                Vertical height of a solid
 Obstacle height                obstruction that can be
                                climbed                                          0.79 inches             1.57 inches               2.36 inches
                                The minimum speed
 Minimum top-end
                                acceptable on a flat, hard
 speed
                                surface                                    3 miles per hour        3 miles per hour        4.5 miles per hour
                                The minimum distance
 Range                          acceptable on a single
                                charge of the batteries                               5 miles                 7 miles                  12 miles
                                The minimum degree of
                                slope at which the power
                                wheelchair in the most
 Dynamic stability              common seating and
 incline                        positioning configuration(s)
                                remains stable at the
                                required patient weight                           6 degrees                6 degrees               7.5 degrees
                                capacity                                              (1:12)                   (1:12)                    (1:10)
 Source: “Power Mobility Device Coding Guidelines,” August 3, 2006. From the Statistical Analysis Durable Medical Equipment Regional Carrier.




OEI-04-07-00403                                        Miscoded Claims for Power Wheelchairs in the Medicare Program
          Page 14 – Deborah Taylor



          APPENDIX B


Population and Sample Sizes for Standard and Complex Rehabilitation Power Wheelchairs, First Half of 2007

                                                                                   Population                                               Sample
Stratum         Definition                                         Claims       Expenditures           Suppliers        Claims        Expenditures           Suppliers
                 Standard power wheelchair claims
     1           by low-volume suppliers                              7,223        $28,949,132               2,352           125            $499,152               124
                 Standard power wheelchair claims
     2           by high-volume suppliers                           35,910       $144,354,060                  716           125            $502,989                94
                 All standard power wheelchair
 1 and 2         claims                                             43,133       $173,303,192                3,068           250          $1,002,141               218
                 Complex rehabilitation power
     3           wheelchair claims*                                   3,001        $16,010,906               1,064           125            $665,200               113

                              Total                                 46,134       $189,314,098              3,362**           375          $1,667,341              325**
* Procedure codes K0835–K0864.
** Supplier figures do not sum to totals because of overlap (some suppliers in our sample provided both standard and complex rehabilitation power wheelchairs).
Source: Office of Inspector General analysis of Medicare power wheelchair claims with dates of service from January 1 to June 30, 2007.




          OEI-04-07-00403                                           Miscoded Claims for Power Wheelchairs in the Medicare Program
Page 15 – Deborah Taylor




APPENDIX C


 Estimates and Confidence Intervals for Miscoded Error Rates Among Standard and Complex
 Rehabilitation Power Wheelchair Claims, First Half of 2007
                                                                                               95-Percent
                                                                     Sample        Point       Confidence
 Estimate Description                                                  Size     Estimate          Interval
                            Standard and Complex Rehabilitation Power Wheelchairs
 Miscoded claims                                                         339        7.7%      4.8%–12.1%
 Upcoded claims                                                          339        3.2%       1.6%–6.2%
 Downcoded claims                                                        339        3.9%       1.9%–8.1%
 Miscoded claims for which invoices had insufficient documentation
 to categorize the claims as upcoded or downcoded                         339       0.6%       0.1%–2.2%
                                  Standard Power Wheelchairs: All Suppliers
 Miscoded claims                                                         219        6.6%      3.6%–11.6%
 Upcoded claims                                                          219        2.5%       0.8%–6.0%
 Downcoded claims                                                        219        3.9%       1.8%–8.5%
 Miscoded claims for which invoices had insufficient documentation
 to categorize the claims as upcoded or downcoded                      219          0.2%       0.0%–2.0%
                             Standard Power Wheelchairs: High-Volume Suppliers
 Miscoded claims                                                         105        5.7%      2.6%–12.3%
 Upcoded claims                                                          105        1.9%       0.2%–6.7%
 Downcoded claims                                                        105        3.8%       1.4%–9.8%
 Miscoded claims for which invoices had insufficient documentation
 to categorize the claims as upcoded or downcoded                     105           0.0%       0.0%–0.0%
                             Standard Power Wheelchairs: Low-Volume Suppliers
 Miscoded claims                                                         114        10.5%     6.1%–17.7%
 Upcoded claims                                                          114        5.3%      2.4%–11.3%
 Downcoded claims                                                        114        4.4%      1.8%–10.2%
 Miscoded claims for which invoices had insufficient documentation
 to categorize the claims as upcoded or downcoded                         114       0.9%       0.0%–4.8%
                                   Complex Rehabilitation Power Wheelchairs
 Miscoded claims                                                         120        22.5%    15.9%–30.8%
 Upcoded claims                                                          120        11.7%     7.1%–18.7%
 Downcoded claims                                                        120        4.2%       1.8%–9.6%
 Miscoded claims for which invoices had insufficient documentation
 to categorize the claims as upcoded or downcoded                        120        6.7%      3.4%–12.7%




OEI-04-07-00403                             Miscoded Claims for Power Wheelchairs in the Medicare Program
